HHS/OIG-Audit--"Review of Chemistry Tests Performed on Automated Laboratory Equipment, (A-01-93-00521)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Chemistry Tests Performed on Automated Laboratory Equipment," (A-01-93-00521)
January 23, 1995
Complete
Text of Report is available in PDF format (2.49 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Medicare Part B program is paying single test payment rates for chemistry
tests commonly performed on automated laboratory equipment. Single tests payment rates are paid because the Health Care
Financing Administration's (HCFA) guidelines regarding chemistry tests subject to paneling have not been updated to add
tests as laboratory technology has advanced. We identified 10 tests which are appropriate for paneling, but are not on
the list of chemistry tests that should be paneled. We recommended that HCFA update its guidelines by expanding the national
list of chemistry panel tests to include the 10 automated chemistry tests identified by our audit. Savings to the Medicare
program would total about 216 million annually as a result. We also recommended that HCFA establish a process whereby advances
in technology and laboratory practices are periodically reviewed to further update the national list. The HCFA generally
concurred with our recommendations.